No.

Supreme Court of tfie ®mtetr States
MIHRAN MELKONYAN,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FORA WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
APPENDIX
COMES NOW PETITIONER Mihran Melkonyan and submits the attached appendix
pursuant to Supreme Court Rules.
Mihran Melkonyan
Petitioner
72465-097
P.O. Box 9
Mendota, CA 93640
Date:
Vtr-

25

APPENDIX A
ORDER & JUDGMENT OF THE COURT OF APPEALS
FOR THE NINTH CIRCUIT
DATED 12-15-20

\

United States v. Melkonyan
United States Court of Appeals for the Ninth Circuit
December J O, 2020’*, Submitted, San Francisco, California; December 1 5,2020, Filed
No. 19-10026

*’ The panel unanimously concludes this case is suitable .for decision Without oral argument See Fed. R. App. P. 34(a)(2).

Melkonyan Appendix A1

Page 2 of 3
831 Fed. Appx. 319, *319; 2020 U.S. App. LEXIS 39305, **39305

Reporter
831 Fed. Appx. 319 *; 2020 U.S. App. LEXIS 39305 ♦*; 2020 WL 7364798
UNITED STATES OF AMERICA, PlaintiflAppellee, v. MIHRAN MELKONYAN,
Defendant-Appellant.

1*319] MEMORANDUM*

Mihran Melkonvan appeals his sentence after a jury
Notice: PLEASE REFER TO FEDERAL RULES found him guilty of 24 counts of wire fraud, in
OF APPELLATE PROCEDURE RULE 32.1 violation of 18 U.S.C, § 1343, and 2 counts of mail
GOVERNING
THE
CITATION
TO fraud, in violation of 18 U.S.C. § 1341. We have
UNPUBLISHED OPINIONS.
jurisdiction under 28 U.S.C. § 1291, and we affirm.
Subsequent History: Rehearing denied by, En
banc, Rehearing denied by United States v.
Melkonvan, 2021 U S. App. LEXIS 5304 (9th Cir.
CaL, Feb, 23, 2021)
Prior History: |**1] Appeal from the United
States District Court for the Eastern District of
California Garland E. Burrell, Senior District
Judge, Presiding. D.C. No. 2:14-CR-00083-GEBEFB-1.
United States v. Melkonyan, 2017 U.S. Dist.
LEXIS 10574,2017 WL 363197 (E.D, Cal., Jan.
24, 2017)
Disposition: AFFIRMED.
Counsel: For UNITED STATES OF AMERICA,
Plaintiff - Appellee: Michael D. Anderson,
Assistant U.S. Attorney, Kurt Didier, Assistant U.S.
Attorney, USSAC - Office of the U S Attorney,
Sacramento, CA; Aaron Daniel Pennekamp,
Attorney, DOJ-USAO, Sacramento, CA.
For MIHRAN MELKONYAN, Defendant Appellant: Timothy Edward Warrincr, Attorney,
Law Office of Tim Warrincr, Sacramento, C A.
Judges: Before: W. FLETCHER and IKUTA,
Circuit Judges, and SCHRE1ER,*** District Judge.

Opinion

Die district court's findings satisfy Fed. R. Crim. P.
32. At sentencing, the court stated, "Defendant’s
objections are not supported by the trial record,'’
and ”1 adopt the findings in the prcscntcncc report
to tlie extent they’re not inconsistent with the
findings that 1 have made during this proceeding,"
The court made clear that it was aware of
defendant's objections, but disagreed |**2J with
them, and expressly relied on the trial record as
well as the Presentence Report’s (PSR) resolution
of disputed issues. See United Slates v.
Wijegoonamtna, 922 F.3d 983, 990 (9th Cir. 2019);
United States r. McClain, 30 F.3d 1172, 1174 (9th
Cir. 1994) (per curiam). This satisfies the court’s
duty to state its resolution of disputed issues.
The district court correctly calculated a 22-level
increase to Mclkonyan's offense level for amount of
loss. The $500 amount in Application Note 3(F)(i)
to U.S.S.G, § 2B1.1 establishes "a presumed loss,
setting a floor beneath which neither 'actual' nor
'intended' loss may fall." United States v. Yeiiowe,
24 F.3d 1110, 1113 (9th Cir. 1994) (emphasis
omitted); see also United States v. King, 861 F.3d
692, 694 n.l (7th Cir. 2017) (noting that in 2000,
the Sentencing Commission moved Application
Note 4 to Application Note 3(F)(i) and changed the
minimum loss amount from $100 to $500 per
device). Here, because the number of unauthorized
access devices is not in dispute,’ multiplying that
* This disposition is not appropriate for 'publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

The Honorable Karen T. Schreier. United States District Judge for
the District of South Dakota, sitting by designat ion.

'See United Stales V. Gainza, No. I9-10430; 9S2 F3d 762, 2020

Melkonyan Appendix A2

Page 3 of 3

831 Fed. Appx. 319, *319; 2020 U.S. App. LEXIS 39305, *‘2
number by [*320] $500 is the correct application
of the Sentencing Guidelines, and the defendant's
subjective intent as to actual loss is immaterial. See
Yeltowe, 24 F.3d at 1113.
The court adequately explained Melkonyan's
sentence when it addressed the parties' objections to
the PSR and heard separate arguments weighing the
factors under 18 U.S.C. § 3553. The court
considered the facts in the trial record and those
presented in the PSR. The court specifically noted
that the Guideline range [**3] of 210 to 262
months was "high,” but that it was supported by the
court's findings and based on "illegal choices the
defendant made." Because the court demonstrated
that it made a reasoned decision, no procedural
error occurred. United States v. Carty, 520 F.3d
984,992 (9th Cir. 2008) (en banc).
Melkonyan essentially makes three arguments in
support of his claim that the sentence is
substantively
unreasonable:
(1)
the
loss
enhancement greatly exceeds actual loss, (2) the
sentence is disproportionately high under the §
3553(a) factors, and (3) the court should have
imposed the 168-month sentence recommended in
the PSR. Hie first two arguments arc foreclosed by
the court's proper calculation of the amount of loss
and its explanation of the sentence. The third
argument ignores the fact that the 168-month
recommendation in the PSR pre-daled a 2-level
enhancement and resulting guideline range
adjustment at the sentencing hearing.In light of the
written objections and oral arguments made by the
parties, and the court's subsequent findings of fact
and explanation, the court did not abuse its
discretion in choosing a guideline-range sentence of
230 months.

"sentencing enhancement tor amount of loss [is]
not based on uncharged or acquitted conduct," the
district court docs not err when it uses a
preponderance of the evidence standard. United
States v. Garro, 517 F.3d 1163, 1169 (9th Cir.
2008); see also United Stales v. Valle, 940 F.3d
473, 480 n.8 (9th Cir. 2019). The superseding
indictment charged Melkonyan with participating
in a scheme to defraud, His conviction established
that he knowingly participated in the scheme and
t|ie actions taken as part of the scheme were
reasonably foreseeable to him. Because the conduct
leading to the loss enhancement was charged in the
indictment and Melkonyan was convicted of those
charges, the court did not err when it applied the
preponderance of the evidence standard.

AFFIRMED.
End ofOecuroctif

Finally, the district court correctly applied the
preponderance of the evidence standard to
establish [**4] facts at sentencing. When a
U.S. App. LEXIS 38172. 2020 WL 7222136 (9th Cir. Dec. 8. 2020)
(referring with approval to the court's use of the $500 minimum per
access device found in Application Note 3(F)(i) to determine amount
of loss, even when the num ber of access devices was disputed by ihe
defendant).

Melkonyan Appendix A3

APPENDIX B
JUDGMENT OF THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF CALIFORNIA
ENTERED 1-22-19

Case 2:14-cr-00083-JAM-EFB Document294 Filed 01/22/19 Page lot8
A0 245B-CA^D (Rev.02/20l_R)Shcct^^JudgmcrH in a Criminal Case _____

^

___

UNITED STATES DISTRICT COURT
Eastern District of California
United states of America
V.

JUDGMENT IN A CRIMINAL CASE
Case Number: 2:14CR00083-1

MIHRAN MF.I.KONYAN

Defendant’s Attorney: T<Vni While

THE DEFENDANT:
[| pleaded guilty to count(s)___
[ j pleaded nolo contendere to count(s)___, which was accepted by the court.
fU was found guilty on count{s) I through 26 after a plea of not guilty.
The defendant is adjudicated guiliy of these oiTenses:
Title & Section
1 Nature of Offense

] Offense Ended

{Count
|l -24
|26

18 USC 1343

Swire fraud

jig USC 1341

jjMAIL FRAUD

,3/5/14
|5/10/13

18 USC 3341

IlMAIL FRAUD

|4/15/.13

She defendant is sentenced as provided in pages 2 through 8 of this judgment. The sentence is imposed pursuant to the
Sentencing Reform Act of 3984.
[|
[ |
[ |
[-']

The defendant has been found not guilty on count(s)____
Count(s)___dismissed an the motion ofthe United States.
Indictment is to be dismissed by District Court on motion of the United States.
{ I
Appeal rights waived.
Appeal rights given.

It is ordered that the defendant must noti fy the United Slates attorney for this district within 30 days of any change of name,
residence, or mailing address until all fmes, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution or fine, the defendant must notify the court and United States attorney of material changes id economic
circumstances.
1/4/2019
Date oflmposition of Judgment

Signature of Judicial Officer
Garland E. Burrell, Jr., Senior U. S. District Judge
Name & Title of Judicial Officer
1/22/2019
Date

Melkonyan Appendix B1

Case 2:14-cr-00083-JAM-EFB Document 294 Filed 01/22/19 Page 2 of 8
AO 24.1B-CAKD (Rev, 02/20IS)Shea 2 - Imprisonment
DEFENDANT: MIHRAN MELKONYAN
CASE NUMBER: 2:J4CR00083-1

Page 2 of S

IMPRISONMENT
Hie defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of:
230 months per count to be served concurrently, for a total term of 230 months-

II

No TSR: Defendant shall cooperate in the collection of DNA.

Pi

The court makes the following recommendations to the Bureau of Prisons:
The Court recommends that the defendant be incarcerated in a California facility, but only insofar as this accords with security
classification and space availability.

P]

The defendant is remanded to the custody of the United States Marshal.

51

The defendant shall surrender to iheUiiited States Marshal for this district
at___ on___
as notified by the U nited Slates Marshal,

{ 1
! J

iI

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
J |
before___on____
[|
as notified by the United Stales Marshal.
| |
as notified by the Probation or Pretrial Services Officer.
If no such institution has been designated, to the United States Marshal for this district.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

________________________ to______

with a certified copy of this judgment.

United States Marshal

By Deputy' United States Marshal

Melkonyan Appendix B2

Case 2:14-cr-00083-JAM-EFB Document 294 Filed 01/22/19 Page 3 of 8
AO 245B-CAF.D (Rev. 02/20)8) Sheet 3 - Supervised Release

.Page 3 of8

DEFENDANT: MlliRAN MELKONYAN
CASE NUMBER: 2:J4CR00083-1

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:
36 months per count to be served concurrently, for a total term of 36 months;.

MANDATORY CONDITIONS
You must not commit another federal, state or local crime.
You must not unlawful ly possess a controlled substance.
You must refrain from any unlawful use of controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two (2) periodic drug tests thereafter, not to exceed four (4) drug tests per month.

(«']

The above drug testing condition is suspended, based on the court’s determination that you pose a low risk of future substance
abuse.

|«'J

You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution.

!/]

You must cooperate in the collection of DNA as directed by the probation officer.

{ |

You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et;teq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense.

II

You must participate in an approved program for domestic violence.

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

Melkonyan Appendix B3

Case 2:14-cr-00083-JAM-EFB Document 294 Filed 01/22/19 Page 4 of 8
AO 245B-CAF.H (Rev. 02/2018) Sheet 3 - Surmised Release
Page 4 of S

DEPENDANT: M1HRAN MELKONYAN
CASE NUMBER: 2:14CR00083*1
STANDARD CONDITIONS OF SUPERVISION

As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.

2.
3.
4.
5.

6.
7.

8.

9.
30.

11.
12.

13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a
different time frame.
After initially reporting to the probation office, you will receive instructions from the Court or the probation officer about
bow' and when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission
from the Court or the probation officer.
You must answer truthfully the questions asked by the probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your
living arrangements (such as the people you live with), you must notify the probation officer at least 3 0 days before the
change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the
probation officer within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
Officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses
you from doing so. If you do not have full-time employment, you must try to find full-time employment, unless the probation
officer excuses you from doing so. If you plan to change where you work or anything about your work (such ns your position
or your job responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the
probation officer at least 10 days in advance is not possible due to unanticipated circumstances, you must notify the probation
officer within 72 hours of becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has
been convicted of a felony, you must not knowingly communicate or interact with that person without first getting the
permission of the probation officer.
Ifyou are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own. possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (l.e.. anything
that was designed, or was modified for. the specific purpose of causing bodily injury or death to another person, such as
nunchakus or lasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source of informant
without first getting the permission of the Court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer
may require yon to notify the person about the risk and you must comply with that instruction. The probation officer may
contact the person and confirm that you have notified the person about the risk.
You must follow the instructions Of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available aU www.uscouits.BOV.
Defendant's Signature

Date

Melkonyan Appendix B4

Case 2:14-cr-00083-JAM-EFB Document 294 Filed 01/22/19 Page 5 of 8
AO 245B-CAEP (Rev. 02/2018) Sheet 3 - Supervised Release____________________________________________________ ___
DEFENDANT: MIHRAN MELKONYAN
CASE NUMBER: 2: J4CR00083-1

Page 5 of8

SPECIAL CONDITIONS OF SUPERVISION
f.

The defendant shall submit to the search of his person, property, home, and vehicle by a United States probation officer, or
any other authorized person under the immediate and personal supervision of the probation officer, based upon reasonable
suspicion, without a search warrant, Failure to submit to a search may be grounds for revocation. The defendant shall warn
any other residents that the premises may be subject to searches pursuant to this condition.

2.

The defendant shall not dispose of or otherwise dissipate any of his assets until the fine and/or restitution ordered by this
Judgment is paid in full, unless the defendant obtains approval of the Court or the probation officer.

3.

The defendant shall apply all monies received from income tax refunds, lottery winnings, inheritance, judgments and any
anticipated or unexpected financial gains to any unpaid restitution ordered by this Judgment:

4.

The defendant shall provide the probation officer with access to any requested financial information.

5.

The defendant shall not open additional lines of credit without the approval of the probation officer.

6.

Pursuant to 18 USC 3583(dX3), upon completion of the term of imprisonment the defendant is to be surrendered io a duly
authorized Immigration official for deportation proceedings in accordance with the established procedures provided by: the
Immigration and Nationality Act. If ordered deported, the defendant during the term of supervised release, shall remain
outside the United States and shall not re-enter the United States without tire consent of the Secretary of the Department of
Homeland Security of the United Stales,
Upon any re-entry, lawful or unlawful, into the United Stales, the defendant shall report in person to the United Slates
Probation Office in the Eastern District of California within 72 hours.

Meikonyan Appendix B5

Case 2:14-cr-00083-JAM-EFB Document 294 Filed 01/22/19 Page 6 of 8
AO2458-<^BD(RcM)2/20l8^twc^^MminalMwaa^^^(Ek5
Page 6 of8

DEFENDANT: M1HRAN MELKONYAN
CASE NUMBER: 2:14CR00083-1
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the Schedule of Payments on Sheet 6,

TOTALS

Fine
$0.00

Assessment
82,600.00

Restitution
$1,418,959.00

( j

The determination of restitution is deferred until____An Amended Judgment in a Criminal Case (AO 245C) will be entered
after such determination.

[■']

The Court orders the defendant to pay restitution to the single victim as outlined in the Restitution Attachment on Sheet 5B.
In addition, the Court gives notice that this case involves other defendants, or may involve other defendants, who may be held
jointly and severally liable for payment of all or part of the restitution ordered herein and may order such payment in the future.
Such future orders do not increase the amount of restitution ordered against the defendant.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. 8 3664(i), all nontedcral
victims must be paid before the United States is paid,

| 1

Restitution amount ordered pursuant to plea agreement $___

( j

The defendant must pay interest on restitution and a fine of more than 82,500. unless the restitution or fine is paid in full before
the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f)- All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

fvj

The court determined that the defendant docs not have the ability to pay interest and it is ordered that:
i/j

The interest requirement is waived for the

I ]

The interest requirement for the

I j fine

[ ]:finc

jrj restitution

[ j restitution is modified as follows:

I ]

If incarcerated, payment of the fine is due during imprisonment at the rate of not less than $25 per quarter and payment shall be
through the Bureau of Prisons Inmate Financial Responsibility Program.

j«*]

If incarcerated, payment of the restitution is due during imprisonment at the rate of not less than 825 per quarter and payment
shall be through the Bureau of Prisons Inmate Financial Responsibility Program.

^Findings for the total amount of losses arc required under Chapters 109A, 110, 110 A, and 113A of Title 18 for offenses committed
on or after September 13,1994, but before April 23,1996.

Melkonyan Appendix B6

Case 2:14-cr-00083-JAM-EFB Document 294 Filed 01/22/19 Page 7 of 8
AO 245B-CAED (Re'-. 02/2018) Sheel 5B - Criminal Monetary Penalties

........................
Pago 7 of 8

DEFENDANT: MIHRAN MELKONYAN
CASE NUMBER: 2:14CR00083-1
RESTITUTION PAYMENTS
Restitution of $1,418,959.00 to:

AMERICAN EXPRESS
PASENDENA, CA 9U17
$1,418,959.00

Melkonyan Appendix B7

Case 2:14-cr-00Q83-JAM-EFB

Document 294 Filed 01/22/19 Page 8 of 8

A02438-C^D(Rcv^M«l8)ShK<6-Sctelnterf^mcms
DEFENDANT: M1HRAN MELKONYAN
CASE NUMBER: 2:14CR00083-1

Pago 8 of8

SCHEDULE OF PAYMENTS
Having assessed (he defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
A.

\ 3

Lump sum payment of S
! I
g ]

due immediately, balance due

Not later than___. or
I 1C,
in accordance

I i D.

I 3E,or

! 3 F below: or
ilC,

I ID,

or I J F below): or

B.

KJ

Payment to begin immediately (may be combined with

C.

j3

Payment in equal___(e.g. weekly, monthly, quarterly) installments of $___ over a period of___ (e.g. months or
years), to commence___(e.g. 30 or 60 days) after the date of this judgment; or

B.

1!

Payment in equal___(e,g. weekly, monthly, quarterly) installments of $___ over a period of___ (e.g. months or
years), to commence___(e.g. 30 or 60 days) after release from imprisonment to a term of supervision; or

E.

1J

Payment during the term of supervised release/probation will commence within __ (e.g. 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendants ability to pay at
that time: or

F.

E3

Special instructions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, ifthis judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons'
Inmate Financial Responsibility Program, arc made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
13

The defendant shall pay the cost of prosecution,

j J

The defendant shall pay the following court costfsj:

1 |

The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment. (2) restitution principal, (3) restitution interest. (4) tine principal.
(5) tine interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost ofprosecution and court
costs.

Melkonyan Appendix B8

APPENDIX C
ORDER OF THE COURT OF APPEALS
FOR THE NINTH CIRCUIT
DATED 2-23-21

United States v. Melkonyan
United States Court of Appeals for the Ninth Circuit
February 23,202J, Filed
No. 19-30026
Reporter
2021 U.S. App. LEXIS 5304 *

UNITED STATES OF AMERICA, PlaintiffAppellee, v. M1HRAN MELKONYAN,
Defendant-Appellant.

The full court has been advised of the petition for
rehearing eii banc, and no judge of the court has
requested a vote on it.

Prior History: |*1] D.C. No. 2:l4-cr-00083-GEB- The petition for panel rehearing am! rehearing en
EFB-1. Eastern District of California, Sacramento.
banc is DENIED.
United States v. Melkonyan, 831 Fed. Appx. 319,
2020 U.S. App. I.F.X1S 39305 (9th Cir. Cal., Dec.
15,2020)

End bf Document

Counsel: For United States of America, PlaintiffAppellee: Michael D. Anderson, Assistant U.S.
Attorney, Kurt Didicr, Assistant U.S. Attorney,
USSAC - Office of the US Attorney, Sacramento,
CA; Aaron Daniel Pennekamp, Attorney, Usao,
Sacramento, CA.
For Mihran Melkonyan, Defendant - Appellant:
Timothy Edward Warriner, Attorney, Law Office
of Tim Warriner, Sacramento, CA.
Judges: Before: W. FLETCHER and IK3JTA,
Circuit Judges, and SCHRE1ER,* District Judge.
Opinion
ORDER
Appellant filed a petition for panel rehearing and
rehearing en banc on January 29, 2021 [DE 58].
The panel has voted to deny the petition for panel
rehearing. Judges W. Fletcher and Ikuta have voted
to deny the petition for rehearing en banc, and
Judge Sehreier so recommends.

' Tilt- Honorable Karen E. Sehreier, United Stales District Judge for
theDisuicI of South Dakota, silting by designation.

Melkonyan Appendix C1

APPENDIX D
USDC ORDER DENYING OBJECTIONS TO PRESENTENCE REPORT
ENTERED 1-4-19

1
Case 2:14-cr-Q0083-JAM-EFB Document 340 Filed 03/15/19 Page 1 of 33

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
—oOo--

1
2
3

UNITED STATES OF AMERICA
Plaintiff,

4
5
6

v.

Docket No. 14-CR-83
Sacramento, California
January 4, 2019.
9:58 a.m.

)
)

MIHRAN MELKONYAN,

) Re: Judgment and Sentencing

Defendant.

7

)
)
)
)

)
)

8
9

TRANSCRIPT OF PROCEEDINGS
BEFORE THE HONORABLE GARLAND E. BURRELL, JR,
UNITED STATES SENIOR DISTRICT JUDGE

io
APPEARANCES:
11
For the Plaintiff:

HON. McGREGOR W. SCOTT
United States Attorney by
MR. MATTHEW YELOVICH
Assistant U.S. Attorney
501 I Street, Suite 10-100
Sacramento, CA 95814

For the Defendant:

LAW OFFICES OF TONI WHITE by
MS. TONI LaSHAY WHITE
P.0, Box 1081
El Dorado, CA 95623

Interpreted by:

EDUARD HAIRULLIN (Russian language)

12
13
14
15
16
17

18
19
20
21
22

JENNIFER COULTHARD, RMR, CRR
Official Court Reporter
501 I Street, Suite 4-200
Sacramento, CA 95814
jenrmrcrr2@gmai1.com
(312)617-9858
Mechanical Steno - Computer-Aided Transcription

23
24
25
JENNIFER COULTHARD - OFFICIAL COURT REPORTER - USDC - (312)617-9858

Melkonyan Appendix D1

!

i

20
Case 2:14-cr-00083-JAM-EFB Document 340 Filed 03/15/19 Page 20 of 33

1

And here the counts of conviction are referenced at

2

2B1.1 .

In 2B1.1 one of the special rules for calculating loss

3

is $500 as a minimum for each access device.

4

dispute that there were 119,000 unique American Express account

5

numbers involved in this scheme.

6

should be overruled largely for the reasons stated in the

7

government's papers.

8
9

THE COURT:

I agree.

supported by the trial record.

There's no real

And the defendant’s objection

Defendant's objections are not
Therefore, they are overruled.

10

I am adding paragraph 26 to the final presentence report, and

11

it reads:

12

strike that.

13

The defendant's offense involved 10 or more

"The defendant's offense involved the unlawful use of

14

the means of identification of 10 or more individuals."

15

there will be a period and they cite advisory guideline section

16

281.1(b)(2), and that would be a plus 2 enhancement.

17

changes the advisory guidelines in the presentence report, it

18

changes the offense level from 33 to 35, criminal history

19

category is Roman numeral III.

20

guideline range 210 to 262 months?

21

MR. YEL0VICH:

22

THE COURT:

Then

That

And is the resulting advisory

Yes, Your Honor.

I adopt the findings in the presentence

23

report to the extent they're not inconsistent with the findings

24

that I have made during this proceeding.

25

offense level was 35, criminal history category Roman numeral

Therefore, the

JENNIFER C0ULTHAR0 - OFFICIAL COURT REPORTER - USDC - (312)617-9858

Melkonyan Appendix D2

APPENDIX E
USDC ORDER DENYING MOTION FOR NEW TRIAL
ENTERED 10-17-18

Case 2:14-cr-00083-JAM EFB Document 269 Filed 10/17/18 Page 1 of 2
1

2
3
4

UNITED STATES DISTRICT COURT

5

EASTERN DISTRICT OF CALIFORNIA

6
7
8

Plaintiff,
ORDER DENTING DEFENDANT MIHRAN
MELKONYAN'S MOTION FOR NEW TRIAL

9

10

2:14-cr-83-GEB

NO.

UNITED STATES OF AMERICA,

MIHRAN MELKONYAN,

11

Defendant.

12
Defendant Mihran Melkonyan moves for a new trial based
13
on

newly

discovered

evidence

and

ineffective

assistance

of

14
counsel, A defendant may move to "vacate any judgment" and seek
15
an order granting "a new trial

if the interest

of justice so

16
requires." Fed. R. Crim. P. 33(a).
17
Melkonyan's

argues

two

claims

support

his

motion:

18
first,

that newly discovered evidence

from co-defendanf Ruslan

.19
Kirilyuk "exonerate[s]" him,

Motion at

17-18,

and second,

that

20
his counsel was constitutionally ineffective in violation of the
21
Sixth Amendment; Motion at 18-34,
22
Melkonyan's has not met has burden on his first claim.
23
"To prevail on a Rule 33 motion for a new trial based on newly
24
discovered evidence,

a defendant must satisfy a five-part test:

25
' (1}

the evidence must be newly discovered;

(2)

the failure to

.26
discover the evidence sooner must not be the result of a lack of
27
diligence

on

the

defendant’s

part;

(3)

28
1

Melkonyan Appendix E1

the

evidence

must

be

Case 2:14-cr-00083-JAM-EFB Document 269 Filed 10/17/18 Page 2 of 2
1

material to the issues at trial;

2

cumulative

3

indicate that a new trial would probably result in acquittal. / //

4

United States v. Harrington, 4i0 F.3d 598, 601,

nor

merely

(4) the evidence must be neither

impeaching;

and

(5)

the

evidence

must

{9th Cir. 2005).

5

The argued new evidence upon which Defendant relies are

6

conclusory assertions of a co-defendant which have not been shown

7

to be evidence that would "probably result in acquittal." Id. at

8

410 F.3d 601.
Nor has

9

defendant

shown that

his

second

claim is

a

10

sufficient basis for granting his motion. Allowing Melkonyan to

11

litigate his ineffective assistance of counsel claims prior to

12

entry of judgment is inconsistent with "[t]he customary procedure

13

for challenging the effectiveness of defense counsel in a federal

14

criminal trial [which] is by collateral attack on the conviction
//

15

United States v.

have

counsel claims, except in limited circumstances where the record

19

is

20

sufficiently developed.

23

Therefore,

Defendant's

Here

motion

"We

.

18

Id.

Pirro:

(9th Cir.

rejected the use of direct appeal for ineffective assistance of

developed."

in

299

17

sufficiently

states

F.3d 297,

1997).

22

the Ninth Circuit

104

16

21

As

Pirro,

the

is

record

denied,

is

not

and

the

October 19, 2018 hearing On the motion is vacated.
Dated:

October 16, 2018

24
%

25
26

GARSPfD E.

L,
Senior United States District Judge

27
28
2

Melkonyan Appendix E2

APPENDIX F
USDC ORDER DENYING 2255 WITHOUT PREJUDICE
ENTERED 3-27-18

i

Case 2:14-cr-00083-JAM-EFB Document 257 Filed 03/27/18 Page 1 of 2
1
2
3
4

5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

JO

II

UNITED STATES OF AMERICA,

12

No. 2:14-cr-0083-GEB-EFB P

Respondent;.

13

ORDER

v.

14

MIHRAN MELKONYAN,

15

Movant.

16
17

Movant, a federal prisoner proceeding pro se, has filed a motion to vacate, set aside or

18

correct his sentence pursuant to 28 U.S.C. § 2255. The matter was referred to a United States

19

Magistrate Judge pursuant to 28 U.S.C. § 636(b)(1)(B) and Local Rule 302.
On January 11,2018, the magistrate judge filed findings and recommendations herein

20
21

which were served on all parties and which contained notice to all parties that any objections to

22

the findings and recommendations were to be filed within fourteen days. Neither party has filed

23

objections to the findings and recommendations.
The court has reviewed the file and finds the findings and recommendations to be

24
25

supported by the record and by the magistrate judge's analysis. Accordingly, IT IS HEREBY

26

ORDERED that:

27

/////

28

/////
i

Melkonyan Appendix F1

Case 2:14-cr-0Q083-JAM-EFB Document 257 Filed 03/27/18 Page 2 of 2

1

1. The findings arid recommendations filed January 11, 2018, are adopted in full;

2

2. Melkonyan’s motion to vacate, set aside, of correct his sentence (EOF No. 237) is

3
4

denied without prejudice; and
3. The Clerk of the Court is directed to close the companion civil case. No. 2:l7-cv-26l6GEB-EFB.

6

Dated: March 26,2018

7

8
9

GAR%ftD E. ^tj^RELL,^ JR.
Senior United States District Judge

10
II
12
13
14
15
16
17

18
19
20
21
22
23
24
25
26
27
28
2

Melkonyan Appendix F2

Case 2:14-cr-00083-3AM-EFB Document 253 Filed 01/11/18 Page lot 2
1
2
3
4

5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10

II

M1HRAN MELKONYAN,

1?

Movant,

13

14
15

No. 2:14-cr-0083-GEB-EFB P

FINDINGS AND RECOMMENDATIONS

v.
UNITED STATES OF AMERICA,
Respondent.

36

17

Melkonyan, without the assistance of counsel, has filed a motion to vacate, set aside, or

18

correct his sentence pursuant to 28 U.S.C. § 2255. ECF No. 237. A motion may be brought in a

19

district court under 28 U.S.C. § 2255 by a person in custody under the sentence of that court. In

20

this case, the motion is premature because Melkonyan has not been sentenced yet. See ECF No,

21

244 (minute order continuing movant’s sentencing to February 9, 2018). He may re-file his

22

§ 2255 motion within one year of the date his judgment of conviction becomes final, or within

23

one year of any of the other events identified in 28 U.S.C. § 2255(f).

24

Accordingly, it is hereby RECOMMENDED that Melkonyan’s motion to vacate, set

25

aside, or correct his sentence (ECF No. 237) be dented without prejudice and the Clerk be

26

directed to close the companion civil ease, 2:17-cv-2616-GEB-EFB.

27

28

These findings and recommendations are submitted to the United States District Judge
assigned to the case, pursuant to the provisions of 28 U.S.C. § 636(b)(1). Within fourteen days
1

Melkonyan Appendix F3

Case 2:14-cr-00083-JAM-EFB Document 253 Filed 01/11/18 Page 2 of 2
1

after being served with these findings and recommendations, any party may file written

2

objections with the court and serve a copy on all parties. Such a document should be captioned

3

“Objections to Magistrate Judge’s Findings and Recommendations.” Failure to file objections

4

within the specified time may waive the right to appeal the District Court’s order. Turner v,

5

Duncan, 158 F.3d 449,455 (9th Cir, 1998); Martinez v. YIst, 951 F.2d 1153 (9th Cir. 1991). In

6

his objections movant may address whether a certificate of appealability should issue in the event

7

he files an appeal of the judgment in this case.

8

DATED: January 10,2018.

9
10

EDMUND F, BRENNAN
UNITED STATES MAGISTRATE JUDGE

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
2

Melkonyan Appendix F4

APPENDIX G
USCA ORDER DENYING REMAND FOR 3582 RULING IN USDC
ENTERED 5-26-20

United States v. Melkonyan
United States Court of Appeals for the Ninth Circuit
May 26,2020, Filed
No. 19-10026
Reporter
2020 U.S. App. LEXIS 16702 *
UNITED STATES OF AMERICA, PlaintiffAppellee, v. M1HRAN MELKONYAN,
Defendant-Appellant.

remains in effect.
3E«<J

Prior History: 1*1] D.C. No. 2:14-cr-00083-GEBEFB-L Eastern District of California, Sacramento.
United States v. Melkonyan, 2017 U.S. Dist.
LEXIS 10574 <E.D. Cal, Jan. 24,2017)
Counsel: For United States of America, Plaintiff Appellee: Michael D. Anderson, Kurt Didier,
Assistant U.S. Attorney, Assistant U.S. Attorney,
USSAC - Office of the US Attorney, Sacramento.
CA; Aaron Daniel Pennekamp, Attorney, Usao,
Sacramento, CA.
For Mihran Melkonyan, Defendant - Appellant:
Timothy Edward Warriner, Attorney, Law Office
of Tim Warriner, Sacramento, CA.
Judges: Before: SILVERMAN, NGUYEN, and
COLLINS, Circuit Judges.

Opinion
ORDER
Appellant has filed an urgent motion for a limited
remand to allow the district court to consider
appellant's motion for compassionate release
pursuant to 18 U.S.C. § 3582(cXl)(A)(i), The
district court has not issued an indicative ruling
stating "that it would grant the motion or that the
motion raises a substantial issue.” See Fed. R. App.
P, 12.1(b); Fed, R. Crim. P. 37(a). Appellant's
motion (Docket Entry No. 21) is therefore denied.
The previously established briefing schedule

Melkonyan Appendix G1

APPENDIX H
USDC ORDER DENYING 3582 MOTION
ENTERED 4-27-20

*

United States v. Melkonyan
United States District Court for the Eastern District of California
April 27, 2020, Decided; May 5,2020, Filed
No. 2:14-cr-0083-JAM
Reporter
2020 U S. Dist. LEXIS 79091 *; 2020 WL 2128591
UNITED STATES OF AMERICA, Plaintiff, v,
M1HRAN MELKONYAN, Defendant.
Prior History: United States v. Melkonyan, 2017
U.S. Dist. LEXIS 10574 (E.D. Col., Jan. 24, 2017)
Counsel: | *1 ] For Mihran Melkonyan, Defendant:
Toni LaShay White, LEAD ATTORNEY, Law
Offices Of Toni White, El Dorado, CA.
For Rouslan Akhmerov, Defendant: Dmitry Y.
Gurovich, LEAD ATTORNEY, Gurovich, Berk &
Associates, APC, Sherman Oaks, CA.
For Aleksandr Maslov, Defendant: Robert M,
Wilson, LEAD ATTORNEY, Law Offices of
Robert M. Wilson, Sacramento, CA.
For Ruslan Kirilyuk, Defendant: Olaf William
Hedberg, LEAD ATTORNEY, Law Office of Olaf
W. Hedberg. Sacramento, CA.
For USA, Plaintiff: Michael Dwight Anderson,
GOVT, LEAD ATTORNEY, Matthew Yelovich,
GOVT, United Stales Attorney’s Office,
Sacramento, CA; Kurt Didier, flu, U.S. Attorney’s
Office, Sacramento, CA.
Judges: JOHN A. MENDEZ, UNITED STATES
DISTRICT JUDGE.
Opinion by: JOHN A. MENDEZ

Opinion

ORDER DENYING DEFENDANT'S MOTION
TO REDUCE SENTENCE

Mihran Melkonyan {"Defendant"), a prisoner
serving his sentence at the Lompoc Federal
Correctional Institution ("Lompoc FCI"), a Bureau
of Prisons ("BOP”) facility located in Lompoc,
California, moves for a reduction of his term of
imprisonment under the federal compassionate
release statute, 18 U.S.C. § 3582(c)(1)(A). Mot,,
ECF No. 419. Tire Government filed an opposition,
ECF No. 422, to which Defendant replied, ECF No.
424. After consideration of the parties' 1*2]
briefing on the motion and relevant legal authority,
the Court DENIES Defendant's Motion to Reduce
Sentence.
I. BACKGROUND
On February 15, 2017, Defendant was found guilty
on twenty-four counts of wire fraud, in violation of
18 U.S.C. § 1343, and two counts of mail fraud, in
violation of 18 U.S.C. § 1341. Verdict Form. ECF
No. 174. On January 4, 2019, Defendant was
sentenced to 230 months of imprisonment.
Judgment, ECF No. 294. Defendant began service
of sentence on January 4, 2019. BOP Inmate Data,
Ex. 1 to Opp'n at 3, ECF No. 422-1. His projected
release date is August 13,2031. IcL
On January 16. 2019, Defendant filed a notice of
appeal. ECF No. 290. Among the issues on appeal.
Defendant challenges his 230-month sentence as
"substantively unreasonable." Opening Appellate
Brief, Ex. D to Mot. at 29-36, ECF No. 419-4. That
appeal remains pending before the Ninth Circuit.
See United Stales v. Melkonyan. Case No. 1910026. Defendant now requests this Court reduce
his sentence and release him in advance of his
projected release date because he is at risk of

Melkonyan Appendix H1

Page 2 of2
2020 U.S. Dist. LEXIS 79091, ‘2

contracting, and experiencing serious complications
from, COV1D-19 if he remains at Lompoc FCI,
Mot. at 2-4.

End of Document

]]. OPINION
The procedural posture of this case divests f*3|
this Court of the jurisdiction necessary to consider
Defendant's motion. Defendant filed this motion
after he filed a notice of appeal in this Court. See
ECF No. 290. "The filing of a notice of appeal
confers jurisdiction on the court of appeals and
divests the district court of its control over those
aspects of the case involved in the appeal." United
States v. Ortega-Lopez, 988 F.2d 70, 72 (9th Cir.
1993) (citing Griaas v. Provident Consumer
Discount Co.. 459 U.S. 56, 58, 103 S. Ct, 400, 74
L. Ed. 2d 225 (1982)) (internal quotation marks
omitted). And although Ortcga-Lopcz held the
district court lacked jurisdiction to modify a
sentence under Federal Rule of Criminal Procedure
35(b), not under 18 U.S.C. § 3582(c), "there is no
basis for distinguishing between these two types of
modifications for jurisdictional purposes.” United
States v. Maldonado-Rios. 790 F.3d 62, 64 (1st Cir.
2015). On appeal, Defendant challenges the length
of his sentence. See Opening Appellate Brief at 2936. Thus, his sentence is directly involved in the
appeal. Accordingly, this Court is divested of its
ability to reduce Defendant’s sentence. See OrteaaLonez. 988 F.2d at 72 ("|A] district court is
divested of jurisdiction once a notice of appeal has
been filed from the original sentence.").
HI. ORDER
For the reasons set forth above, fire Court DEN IBS
Defendant's Motion to Reduce Sentence.
IT IS SO ORDERED.
Dated: April 27,2020
hf John A. Mendez.
JOHN A. MENDEZ
UNITED STATES DISTRICT JUDGE

Melkonyan Appendix H2

